\AR Wilson Sonsini Goodrich & Rosati

1700 K Street. NW, Fifth Floor
Washington, D.C., 20006-3817
PHONE

PROFESSIONAL CORPORATION

202.973.8800

FAX 202.973.8899
WWW.WSgt.COM

September 6, 2019
Scott S. Harris
Clerk of the Court
Supreme Court of the United States
1 First Street, NE
Washington, DC 20543-0001
Re:

John C. Carney, Governor of Delaware v. James R. Adains, No. 19-309

Dear Mr. Harris:
The Governor of Delaware filed a petition for certiorari in the above-captioned
case on Wednesday, September 4, 2019. Subsequently, we learned of an additional
case that might be deemed related under Supreme Court Rule 14.1(b)(iii). In an
abundance of caution, we write to notify you of Adams v. Governor of Delaware, No. 191617, in the. U.S. Court of Appeals for the Third Circuit. In that case, Joseph M. Walls,
a prisoner, appeals the denial of his motion to intervene, which was filed after the
district court entered judgment in our case. Mr. Walls has not yet filed his opening
brief in that case.
Thank you for your attention to this matter.

Sincerely,

/s Steffen N. Johnson
Steffen N. Johnson

RECEIVED
SEP - 9 2019
OFFICE OF THE CLERIC
SUPREME COURT U.S:

AUSTIN BEIJING BOSTON BRUSSELS HONG KONG LOS ANGELES NEW YORK PALO ALTO
SAN DIEGO SAN FRANCISCO SEATTLE SHANGHAI WASHINGTON, DC WILMINGTON, DE

